APPENDIX

TABLE OF APPENDICES
Appendix A
Court of Appeals’ Revised Opinion
(Sept. 17, 2020) ................................... App-001
Appendix B
Court of Appeals’ Order
Denying En Banc Rehearing
(Sept. 16, 2020) ................................... App-016
Appendix C
Court of Appeals’ Initial Opinion
(Aug. 7, 2020) ..................................... App-018
Appendix D
Court of Appeals’ Judgment
(Aug. 7, 2020) ..................................... App-033
Appendix E
District Court’s Order Denying
Motion to Alter Judgment
(Feb. 8, 2019) ...................................... App-035
Appendix F
District Court’s Final Judgment
(Aug. 16, 2018) ................................... App-036
Appendix G
District Court’s Findings and
Conclusions (Aug. 16, 2018) ............... App-037
Appendix H
District Court’s Opinion on
Partial Summary Judgment
(Aug. 8, 2014) ..................................... App-044

App-001
Appendix A

REVISED September 17, 2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________
No. 19-20151
___________
Consolidated with: 19-20371
In the Matter of: ATOM INSTRUMENT
CORPORATION, doing business as
Excitron Corporation,
Debtor
ATOM INSTRUMENT CORPORATION, doing business as Excitron Corporation; FRANEK
OLSTOWSKI,
Plaintiffs - Appellants
v.
PETROLEUM ANALYZER COMPANY, L.P.,
Defendant - Appellee
Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:12-CV-1811
Before ELROD, SOUTHWICK, and HAYNES, Circuit
Judges.

App-002

LESLIE H. SOUTHWICK, Circuit Judge:
The plaintiff corporation filed for bankruptcy. It
brought an adversarial proceeding against a former
employer of the founder of the bankrupt, claiming
misappropriation of trade secrets, unfair competition,
and civil theft. The district court withdrew the reference to the bankruptcy court, held a bench trial, and
entered a take-nothing judgment. The court also
awarded attorneys’ fees to the defendant. We
AFFIRM the judgment and fee award, and we
REMAND to allow the district court to make the initial determination and award of appellate attorneys’
fees to Petroleum Analyzer.
FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff Franek Olstowski once worked for the defendant Petroleum Analyzer Co., L.P., where he was a
research and development consultant. While working
there in 2002, Olstowski developed an excimer lamp
using krypton-chloride to detect sulfur with ultraviolet fluorescence. There is no dispute that Olstowski
developed the technology on his own time and in his
own laboratory, but he also performed tests and generated data for the technology using Petro-leum Analyzer resources. In 2003, and again in 2005, Olstowski
and Petroleum Analyzer entered into non-disclosure
agreements regarding the technology. The parties
never were able to agree on licensing. During the period of the discussions, Olstowski applied for a patent
for his technology, then twice amended it. The Patent
and Trademark Office rejected his first application
and his first amendment but accept-ed his second
amended application. ATOM Instrument Corp. was

App-003

started in 2004 by Olstowski to assist him in the failed
licensing discussions with Petroleum Analyzer.
In 2006, Petroleum Analyzer filed a lawsuit in the
269th District Court of Harris County, Texas, seeking
a declaratory judgment that Petroleum Analyzer is
the owner of the technology Olstowski developed. The
state court ordered the claims to arbitration because
the 2005 non-disclosure/non-use agreement contained
an arbitration clause. The arbitration panel declared
that Olstowski is the owner of:
a. the technology and methods embodied in the patent applications styled “Improved Ozone Generator with Duel Dielectric Barrier Discharge,” Improved Close-Loop Light Intensity Control and
Related Fluorescence Application Method;” and
“Excimer UV Fluorescence Detection”;
b. all of the accompanying drawings, blueprints,
schematics and formulas created or drawn by either Olstowski or Virgil Stamps of the application identified in or in support of ((a) and (b) hereinafter referred to as the “Excimer Technology”);
and
c. Issued Patents and/or Patent Applications pending entitled: Ozone Generator with Dual Dielectric Barrier Discharge and Methods for Using
Same,” Improved Closed-Loop Light Intensity
Control and ·Related Fluorescence Application
Method, and Excimer UV Fluorescence Detection
(as amended).
The panel also concluded that the “[t]echnology and
intellectual property embodied within the technology
set forth in paragraph 5 (a)–(c) above are trade secrets
of Olstowski.” Accordingly, the panel enjoined Petroleum Analyzer from claiming or using the technology.

App-004

On November 6, 2007, the state court confirmed the
arbitral award. A Texas appellate court upheld the
confirmation order. Petroleum Analyzer Co. v. Olstowski, No. 01-09-00076-CV, 2010 WL 2789016, at *1
(Tex. App.—Houston [1st Dist.] July 15, 2010, no pet.).
In 2009, Petroleum Analyzer partnered with a German company to develop its own sulfur-detecting excimer lamp called a MultiTek, which also used krypton-chloride to detect sulfur with ultraviolet fluorescence. Petroleum Analyzer manufactured and sold the
MultiTek between November 2009 and October 2011.
In December 2010, upon learning that Petroleum
Analyzer was selling the MultiTek, Olstowski and
ATOM filed a motion in state court to hold Petroleum
Analyzer in contempt because Petroleum Analyzer violated the order enjoining it from using Olstowski’s
technology. Petroleum Analyzer responded that the
confirmation order had ambiguously defined the technology that Petroleum Analyzer was enjoined from using. In August 2011, Olstowski and ATOM again
moved to enforce the injunction, and in December
2011 they filed a second contempt motion. The state
court granted the motion in part merely to clarify the
meaning of the confirmation order. The state court
concluded that the phrase “technology developed by
Olstowski” as used in the confirmation order “means
technology using an excimer light source that uses
Krypton-Chloride specifically to measure sulfur using
ultraviolet fluorescence.” The state court, though, denied the contempt motion due to mootness: Petroleum
Analyzer had ceased selling the MultiTek sometime
between September and October of 2011. Significantly, the state court never decided whether Petroleum Analyzer’s MultiTek used Olstowski’s

App-005

technology as defined by the arbitration panel and
confirmation award.
In February 2012, ATOM filed for bankruptcy under
Chapter 11 of the Bankruptcy Code. Two months
later, Olstowski and ATOM initiated an adversary
proceeding against Petroleum Analyzer, in which they
alleged misappropriation of trade secrets, unfair competition, and civil theft. On the bankruptcy court’s recommendation, the district court withdrew the reference to the bankruptcy court and asserted jurisdiction
under 28 U.S.C. § 1334. In August 2014, the district
court entered partial summary judgment for Olstowski and ATOM, holding that Petroleum Analyzer
“will be liable for using the trade secrets of Franek Olstowski and ATOM Instrument, LCC, if it used his
technology in its MultiTek.”
Four years later, the district court held a six-hour
bench trial to determine if Petroleum Analyzer had
used any of Olstowski’s protected technology. The
court entered a judgment in favor of Petroleum Analyzer and later award-ed attorneys’ fees to Petroleum
Analyzer.
Olstowski and ATOM filed two appeals, which we
have consolidated. In one, they argue the district court
made a legal error in holding that Petroleum Analyzer
did not use Olstowski’s technology. In the other, they
challenge the district court’s award of attorneys’ fees
to Petroleum Analyzer.
DISCUSSION
Olstowski and ATOM argue the district court made
two errors: (1) finding that Petroleum Analyzer did
not use Olstowski’s trade secrets in Petroleum Analyzer’s MultiTek and (2) awarding Petroleum

App-006

Analyzer attorneys’ fees under the Texas Theft Liability Act. We consider the issues in that order.

I.
Whether Petroleum Analyzer used Olstowski’s
technology

Because this “appeal requires the review of the district court’s ruling following a bench trial, we review
the district court’s findings of fact for clear error and
legal issues de novo.” Texas Capital Bank N.A. v. Dallas Roadster, Ltd. (In re Dallas Roadster, Ltd.), 846
F.3d 112, 127 (5th Cir. 2017). “We will reverse under
the clearly erroneous standard only if we have a definite and firm conviction that a mistake has been committed.” Id. (quotation marks omitted). “If the district
court made a legal error that affect-ed its factual findings, remand is the proper course unless the record
permits only one resolution of the factual issue.” Id.
(quotation marks omitted).
The district court’s findings and conclusions primarily addressed “whether the MultiTek used what the
panel decided was Olstowski’s technology.” The district court rejected Olstowski and ATOM’s assertion
“that Olstowski’s technology is any device using an excimer light source that uses krypton-chloride specifically to measure sulfur using ultraviolet fluorescence,” reasoning that the use of krypton-chloride
“does not define the technology but rather describes
its function.” The district court found that Olstowski
and ATOM failed to show “the MultiTek’s excimer
lamp was sufficiently similar to Olstowski’s excimer
lamp to be his technology.”
In explaining that there was insufficient similarity
between the MultiTek and Olstowski’s technology, the
district court focused on three contrasting physical
characteristics of the two excimer lamps:

App-007

The MultiTek’s inner electrode is hollow — an
aluminum spiral. Olstowski’s is solid — a rod of
some conductive metal. The MultiTek does not
have an emission aperture; Olstowski’s does.
The emission aperture concentrates the output.
Not having one allows the maximum output.
Both lamps use krypton and chloride in some
proportion. Whether they use those gases in the
same proportion is unknown, because Olstowski
did not tell Petroleum Analyzer what ratio of
krypton and chloride he used.
Accordingly, the district court found that “Petroleum
Analyzer did not use Olstowski’s technology in its
MultiTek.”
Olstowski and ATOM first argue that the district
court made a legal error by misconstruing what the
arbitration panel declared Olstowski’s trade secrets
included. A proper construction of the arbitration
panel’s award, they argue, would indicate that the
three physical differences highlighted by the district
court are irrelevant as a matter of law. According to
the arbitration panel’s award, Olstowski’s trade secrets include the “the technology and methods embodied in the patent applications styled . . . ‘Excimer UV
Fluorescence Detection.’” Olstowski and ATOM contend that patent application does not narrowly limit
Olstowski’s protected technology to any specific structural details. Thus, the structural differences in Olstowski’s and Petroleum Analyzer’s technology are irrelevant. According to Olstowski and ATOM, the only
relevant comparison is Petroleum Analyzer’s use of
krypton-chloride in its MultiTek. Further, they assert
the use of krypton-chloride is not merely a function of
Olstowski’s protected technology as the district court

App-008

found. Instead, it is a method protected by the panel’s
trade-secret award.
Olstowski and ATOM base their entire case on Petroleum Analyzer’s use of krypton-chloride in the MultiTek. Further, because of the backdrop of the arbitration panel’s decision, they argue that what might otherwise look like a factual issue on the technology is
actually a legal issue of interpretation of the panel decision. As they surely realize, it is difficult to argue
that a legal question is posed when asking whether
one company used another’s protected technology. We
examine the argument to see if overcomes our doubts.
The arbitration panel stated that the technology described in Olstowski’s patents is a trade secret. To be
sure, the words “krypton” and “chloride” appear in the
panel decision. Olstowski and ATOM could have provided expert testimony to show how the use of krypton-chloride is so unique to their device as to make it
an integral part of their protected trade secret as opposed to a generic concept of physics, which is unprotected. They did not. The two witnesses they did call
merely testified that Petroleum Analyzer’s MultiTek
used krypton-chloride, a fact Petroleum Analyzer does
not contest.
We conclude that Olstowski and ATOM’s proclaimed
legal issue is indeed a factual one, and that they failed
to carry their burden of proof at trial. On this record,
we cannot say that the district court’s finding of fact
was clearly erroneous.
Olstowski and ATOM also argue that the district
court’s decision disregards the “law of the case,” which
would be another means to transform resolution of
this appeal into primarily a question of law. They contend that the state district and appellate courts

App-009

confirmed the arbitration panel’s award of Olstowski’s
trade secret, and that the state district court clarified
the confirmation order’s description of the technology
to include the use of krypton-chloride. According to Olstowski and ATOM, the federal district court’s judgment improperly altered the plain meaning of the previous orders. We find, first, that neither the arbitration panel award nor the state clarification order explicitly stated that the use of krypton-chloride itself
was a protected trade secret. Second, ATOM and Olstowski asked the district court to “make a ruling . . .
defining what technology in dispute belongs to [them],
to the exclusion of” Petroleum Analyzer. The district
court did so by a decision that did not deviate from the
arbitration panel award or any other order. In fact,
the district court stated that the arbitration panel
award’s description of Olstowski’s technology remained in effect.
The district court did not ignore the “law of the case.”

II.

Attorneys’ fees

After the district court entered its judgment on the
merits of this dispute, Petroleum Analyzer moved for
an award of attorneys’ fees under the Texas Theft Liability Act (“TTLA”). The Act states: “Each person
who prevails in a suit under this chapter shall be
awarded court costs and reasonable and necessary attorney’s fees.” TEXAS CIV. PRAC. & REM. CODE ANN. §
134.005(b). In April 2019, the district court awarded
Petroleum Analyzer $1,319,260.78 in attorneys’ fees.
Olstowski and ATOM timely appealed.
“State law controls both the award of and the reasonableness of fees awarded where state law supplies
the rule of decision.” Mathis v. Exxon Corp., 302 F.3d
448, 461 (5th Cir. 2002). In reviewing an award of

App-010

attorneys’ fees, we apply an abuse of discretion standard. LifeCare Mgmt. Servs. LLC v. Ins. Mgmt. Adm’rs
Inc., 703 F.3d 835, 846 (5th Cir. 2013). That means
clear error review of fact findings and de novo review
of legal conclusions. Id. One question before us is the
need to segregate attorneys’ fees. That is a question of
law; the extent to which certain claims can or cannot
be segregated is a mixed question of law and fact.
Tony Gullo Motors I, L.P. v. Chapa, 212 S.W.3d 299,
312–13 (Tex. 2006).
Olstowski and ATOM argue that the district court
erred in failing to segregate Petroleum Analyzer’s fees
that were not related to Petroleum Analyzer’s defense
of their claim under the TTLA. Texas law requires
that “[i]f any attorney’s fees relate solely to a claim for
which such fees are unrecoverable, a claimant must
segregate recoverable from unrecoverable fees.” Id. at
313. The Texas Supreme Court explained: “Intertwined facts do not make tort fees recoverable; it is
only when discrete legal services advance both a recoverable and unrecoverable claim that they are so intertwined that they need not be segregated.” Id. at
313–14. For example, where segregation is required,
attorneys are not required to “keep separate time records when they drafted the fraud, contract, or DTPA
paragraphs of [the] petition.” Id. at 314. One way to
present the facts is for counsel to estimate, “for example, 95 percent of their drafting time would have been
necessary even if there had been no fraud claim.” Id.
Requests for standard disclosures, proof of background facts, depositions of the primary actors,
discovery motions and hearings, voir dire of the
jury, and a host of other services may be necessary whether a claim is filed alone or with others.
To the extent such services would have been

App-011

incurred on a recoverable claim alone, they are
not disallowed simply because they do double
service.

Id. at 313 (emphasis added). “To meet a party’s burden

to segregate its attorney’s fees, it is sufficient to submit to the fact-finder testimony from a party’s attorney concerning the percentage of hours” related to
claims for which fees are not recoverable. Berryman’s
S. Fork, Inc. v. J. Baxter Brinkmann Int’l Corp., 418
S.W.3d 172, 202 (Tex. App.—Dallas 2013, pet. denied)
(alteration and quotation marks omitted).
As an example of a failure to segregate, Olstowski
and ATOM identify billing entries for work totaling
$3,498 that occurred two days prior to their first assertion of a claim under the TTLA. They say that
these entries could not have been related to litigation
of that claim since they had yet to make the particular
claim. The total $3,498 amount should have been removed, they argue, not just the lesser portion that the
district court did segregate. Another set of disputed
billings relates to an adversary proceeding regarding
two patents allegedly unrelated to the excimer technology dispute. Olstowski and ATOM contend that
“numerous tasks” billed “potentially for tens of thousands” of dollars in the unrelated patent dispute were
not segregated out by the district court.
Petroleum Analyzer responds in two ways: it contends that these arguments were not timely made in
the district court and, regardless, the work that is said
to be unrelated to the judgment here was clearly related. Regarding possible waiver of the issue, there
was a challenge to the fees in the district court on the
basis that segregation of work was required. Though
the argument was not presented in any detail beyond

App-012

the portion of the billing entries totaling $3,498 that
is contested, we conclude the district court addressed
the issue of dividing the fees among different aspects
of the overall dispute and the issues were not waived.
We find no error as to the billing entries totaling
$3,498 used as an example of the need for segregating
the billings. Though the fees were billed for work done
via mediation prior to the TTLA claims being filed, the
work advanced Petroleum Analyzer’s attempt to resolve a threatened claim under the TTLA.
Olstowski and ATOM’s more general claim about error in the award of fees is that legal work on different
aspects of the dispute among the parties involved different patents and different proceedings, some in
bankruptcy court and some before the district court
after the referral was withdrawn. The district court
considered this argument and concluded it was both
difficult and unnecessary to divide the fees, because
the subsets of claims were too interrelated. The court’s
finding, it seems to us, was that none of the “attorney’s
fees relate solely to a claim for which such fees are unrecoverable,” Chapa, 212 S.W.3d at 313, and thus
there was no need to segregate.
The district court’s interaction with counsel at the
hearing on attorneys’ fees is the best indicator of the
findings on this point.
THE COURT: Counsel, suggest to me how having pleaded these two legal theories that ATOM
would segregate its fees had it won on just one of
them.
MR. JOSEPH (counsel for ATOM): Well, we
would have had to have gone through and looked
at the time we spent pleading Theft Liability Act,

App-013

the different interrogatories and requests for
production we sent.
THE COURT: But they are not different. You did
the same thing in prosecuting both claims as you
would have done if you only had one of them.
It seems to us that the court was saying that these
“discrete legal services advance[d] both a recoverable
and unrecoverable claim,” meaning they did not need
to be segregated. Id. at 313–14. Soon after that discussion, ATOM’s counsel stated what in his view was necessary in this kind of case:
MR. JOSEPH: The methodology [employed by
Petroleum Analyzer] is not incorrect. What you
do is, like I said, you have to go back and go
through your time. And, yes, it’s a tedious task
to go through your time and look at how many
paragraphs of your petition went to this claim
versus all the other claims and how much discovery was specifically for this recoverable claim
and the other one.
The district court was not convinced that in this
case, such segregation could be accomplished.
THE COURT: But there is no way to divide this
up. The same proof would have upheld either one
of those claims by itself; and by choosing to be
redundant, ATOM cannot reduce the attorneys
fees that it took to prepare this case.
We see no failure by the district court to understand
how the TTLA works on awarding attorneys’ fees.
Whether and to what extent legal fees can be segregated is a mixed question of law and fact. Chapa, 212
S.W.3d at 313. We find neither clear factual error nor
legal error under de novo review.

App-014

Last, Petroleum Analyzer seeks remand of this case
for the district court to award Petroleum Analyzer appellate attorneys’ fees. 1 Under Texas law, if a party is
entitled to recover attorneys’ fees in the trial court,
the party is also entitled to attorneys’ fees after successfully defending on appeal. DP Sols., Inc. v. Rollins,
Inc., 353 F.3d 421, 436 (5th Cir. 2003) (citing Gunter
v. Bailey, 808 S.W.2d 163, 166 (Tex. App.—El Paso
1991, no writ)). Olstowski and ATOM contend that Petroleum Analyzer waived the right to recover appellate attorneys’ fees under Texas law because Petroleum Analyzer “failed to request or prove contingent
appellate fees” in the original trial.
The Texas Supreme Court has held that a Texas
court of civil appeals does not have jurisdiction to initiate an award of appellate attorneys’ fees because
“the award of any attorney fee is a fact issue which
must [first] be passed upon the trial court.” International Sec. Life Ins. Co. v. Spray, 468 S.W.2d 347, 349
(Tex. 1971). In Texas state courts, requesting appellate fees at the original trial is a placeholder requirement to ensure the state trial courts maintain jurisdiction over the issue. Varner v. Cardenas, 218 S.W.3d
68, 69–70 (Tex. 2007). Those are procedural rules that
do not apply in federal court.
Our local rules provide for appellate litigants to petition this court for appellate attorneys’ fees. See 5TH
CIR. R. 47.8. Local Rule 47.8 does not require a party
seeking appellate attorneys’ fees to first request appellate attorneys’ fees in the district court as a placeholder. See Marston v. Red River Levee & Drainage
1

Though we acknowledge that Petroleum Analyzer’s request for
appellate attorneys’ fees was made in its appellee brief, we treat
this request as a petition.

App-015

Dist., 632 F.2d 466, 467–68 (5th Cir. 1980) (awarding
appellate attorneys’ fees first requested on appeal).

We AFFIRM the judgment and trial fee award. We
REMAND to allow the district court to make the initial determination and award of appellate attorneys’
fees to Petroleum Analyzer.

App-016

Appendix B

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________
No. 19-20151
___________
Consolidated with No. 19-20371
In the Matter of Atom Instrument Corporation, doing
business as Excitron Corporation,
Debtor,
Atom Instrument Corporation, doing business as Excitron Corporation; Franek Olstowski,
Plaintiffs—Appellants,
versus
Petroleum Analyzer Company, L.P.,
Defendant—Appellee.
______________________________
Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:12-CV-1811
______________________________
ON PETITION FOR REHEARING EN BANC
(Opinion August 7, 2020, 5 Cir., _____ , ______ F.3d
______ )
No. 19-20151
consolidated with
No. 19-20371
Before Elrod, Southwick, and Haynes, Circuit Judges.

App-017

Per Curiam:
(X) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. No member of the panel nor
judge in regular active service of the court having requested that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 35), the Petition for
Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. The court having been polled
at the request of one of the members of the court and
a majority of the judges who are in regular active service and not disqualified not having voted in favor
(Fed. R. App. P. and 5th Cir. R. 35), the Petition for
Rehearing En Banc is DENIED.

App-018
Appendix C

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________
No. 19-20151
___________
Consolidated with No. 19-20371
In the Matter of: Atom Instrument Corporation, doing business as Excitron Corporation,
Debtor,
Atom Instrument Corporation, doing business as Excitron Corporation; Franek Olstowski,
Plaintiffs—Appellants,
versus
Petroleum Analyzer Company, L.P.,
Defendant—Appellee.
______________________________
Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:12-CV-1811
Before ELROD, SOUTHWICK, and HAYNES, Circuit
Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
The plaintiff corporation filed for bankruptcy. It
brought an adversarial proceeding against a former
employer of the founder of the bankrupt, claiming
misappropriation of trade secrets, unfair competition,
and civil theft. The district court withdrew the reference to the bankruptcy court, held a bench trial, and
entered a take-nothing judgment. The court also

App-019

awarded attorneys’ fees to the defendant. We’
AFFIRM the judgment and fee award, and we
REMAND to allow the district court to make the initial determination and award of appellate attorneys’
fees to Petroleum Analyzer.
FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff Franek Olstowski once worked for the defendant Petroleum Analyzer Co., L.P., where he was a
research and development consultant. While working
there in 2002, Olstowski developed an excimer lamp
using krypton-chloride to detect sulfur with ultraviolet fluorescence. There is no dispute that Olstowski
developed the technology on his own time and in his
own laboratory, but he also performed tests and generated data for the technology· using Petroleum Analyzer resources. In 2003, and again in 2005, Olstowski
and Petroleum Analyzer entered into non-disclosure
agreements regarding the technology. The parties
never were able to agree on licensing. During the period of the discussions, Olstowski applied for a patent
for his technology, then twice amended it. The Patent
and Trademark Office rejected his first application
and his first amendment but accepted his second
amended application. ATOM Instrument Corp. was
started in 2004 by Olstowski to assist him in the failed
licensing discussions with Petroleum Analyzer.
In 2006, Petroleum Analyzer filed a lawsuit in the
269th District Court of Harris County, Texas, seeking
a declaratory judgment that Petroleum Analyzer is
the owner of the technology Olstowski developed. The
state court ordered the claims to arbitration because
the 2005 non-disclosure/non-use agreement contained
an arbitration clause. The arbitration panel declared
that Olstowski is the owner of:

App-020

a. the technology and methods embodied in the patent applications styled “Improved Ozone Generator with Duel Dielectric Barrier Discharge,” Improved Close-Loop Light Intensity Control and
Related Fluorescence Application Method;” and
“Excimer UV Fluorescence Detection”;
b. all of the accompanying drawings, blueprints,
schematics and formulas created or drawn by either Olstowski or Virgil Stamps of the application identified in or in support of ((a) and (b) hereinafter referred to as the “Excimer Technology”);
and
c. Issued Patents and/or Patent Applications pending entitled: Ozone Generator with Dual Dielectric Barrier Discharge and Methods for Using
Same,” Improved Closed-Loop Light Intensity
Control and ·Related Fluorescence Application
Method, and Excimer UV Fluorescence Detection
(as amended).
The panel also concluded that the “[t]echnology and
intellectual property embodied within the technology
set forth in paragraph 5 (a)-(c) above are trade secrets
of Olstowski.” Accordingly, the panel enjoined Petroleum Analyzer from claiming or using the technology.
On November 6, 2007, the state court confirmed the
arbitral award. A Texas appellate court upheld the
confirmation order. Petroleum Analyzer Co. v. Olstowski, No. 01-09-00076-CV, 2010 WL 2789016, at *1
(Tex. App.—Houston [1st Dist.] July 15, 2010, no pet.).
In 2009, Petroleum Analyzer partnered with a German company to develop its own sulfur-detecting excimer lamp called a MultiTek, which also used krypton-chloride to detect sulfur with ultraviolet

App-021

fluorescence. Petroleum Analyzer manufactured and
sold the MultiTek between November 2009 and October 2011.
In December 2010, upon learning that Petroleum
Analyzer was selling the MultiTek, Olstowski and
ATOM filed a motion in state court to hold Petroleum
Analyzer in contempt because Petroleum Analyzer violated the order enjoining it from using Olstowski’s
technology. Petroleum Analyzer responded that the
confirmation order had ambiguously defined the technology that Petroleum Analyzer was enjoined from using: In August 2011, Olstowski and ATOM again
moved to enforce the injunction, and in December2011
they filed a-second contempt motion. The state court
granted the ·motion in part merely to clarify the
meaning of the confirmation order. The state court
concluded that the phrase “technology developed by
Olstowski” as used in the confirmation order “means
technology using an excimer light source that uses
Krypton-Chloride specifically to measure sulfur using
ultraviolet fluorescence.” The state court, though, denied the contempt motion due to mootness: Petroleum
Analyzer. had ceased selling the MultiTek sometime
between September and October of 2011. Significantly, the state court never decided whether Petroleum Analyzer’s MultiTek used Olstowski’s technology as defined by the arbitration panel and confirmation award.
In February 2012, ATOM filed for bankruptcy under
Chapter 11 of the Bankruptcy Code. Two months
later, Olstowski and ATOM initiated an adversary
proceeding against Petroleum Analyzer, in which they
alleged misappropriation of trade secrets, unfair competition, and civil theft. On the bankruptcy court’s recommendation, the district court withdrew the

App-022

reference to the bankruptcy court and asserted jurisdiction under 28 U.S.C. § 1334. In August 2014, the
district court entered partial summary judgment for
Olstowski and ATOM, holding that Petroleum Analyzer “will be liable for using the trade secrets of
Franek Olstowski and ATOM Instrument, LCC, if it
used his technology in its MultiTek.”
Four years later, the district court held a six-hour
bench trial to determine if Petroleum Analyzer had
used any of Olstowski’s protected technology. The
court entered a judgment in favor of Petroleum Analyzer and later awarded attorneys’ fees to Petroleum
Analyzer.
Olstowski and ATOM filed two appeals, which we
have consolidated. In one, they argue the district court
made a legal error in holding that Petroleum Analyzer
did not use Olstowski’s technology. In the other, they
challenge the district court’s award of attorneys’ fees
to Petroleum Analyzer.
DISCUSSION
Olstowski and ATOM argue the district court made
two errors: (1) finding that Petroleum Analyzer did
not use Olstowski’s trade secrets in Petroleum Analyzer’s MultiTek and (2) awarding Petroleum Analyzer attorneys’ fees under the Texas Theft Liability
Act. We consider the issues in that order.

I.
Whether Petroleum Analyzer used Olstowski’s
technology

Because this “appeal requires the review of the district court’s ruling following a bench trial, we review
the district court’s findings of fact for clear error and
legal issues de novo.” Texas Capital Bank N.A. v. Dallas Roadster, Ltd. (In re Dallas Roadster, Ltd.), 846
F.3d 112, 127 (5th Cir. 2017). “We will reverse under

App-023

the clearly erroneous standard only if we. have a definite and firm conviction that a mistake has been committed.” Id. (quotation marks omitted). “If the district
court made a legal error that affected its factual findings, remand is the proper course unless the record
permits only one resolution of the factual issue.” Id.
(quotation marks omitted).
The district court’s findings and conclusions primarily addressed “whether the MultiTek used what the
panel decided was Olstowski’s technology.” The district court rejected Olstowskiand ATOM’s assertion
“that Olstowski’s technology is any device using an excimer light· source that uses krypton-chloride specifically to measure sulfur using ultraviolet fluorescence,” reasoning that the use of krypton-chloride
“does not define the technology but rather describes
its function.” The district court found that Olstowski
and ATOM failed to show “the MultiTek’s excimer
lamp was sufficiently similar to Olstowski’s excimer
lamp to be his technology.”
In explaining that there was insufficient similarity
between the MultiTek and Olstowski’s technology, the
district court focused on three contrasting physical
characteristics of the two excimer lamps:
The MultiTek’s inner electrode is hollow - an aluminum spiral. Olstowski’s is solid - a rod of some
conductive metal. The MultiTek does not have
an emission aperture; Olstowski’s does. The
emission aperture concentrates the output. Not
having one allows the maximum output. Both
lamps use krypton and chloride in some proportion. Whether they use those gases in the same
proportion is unknown, because Olstowski did

App-024

not tell Petroleum Analyzer what ratio of krypton and chloride he used.
Accordingly, the district court found that “Petroleum
Analyzer did not use Olstowski’s technology in its
MultiTek.”
Olstowski and ATOM first argue that the district
court made a legal error by misconstruing what the
arbitration panel declared Olstowski’s trade secrets
included. A proper construction of the arbitration
panel’s award, they argue, would indicate that the
three physical differences highlighted by the district
court are irrelevant as a matter of law. According to
the arbitration panel’s award, Olstowski’s trade secrets include the “the technology and methods embodied in the patent applications styled . . . ‘Excimer UV
Fluorescence Detection.’” Olstowski and ATOM contend that patent application does not narrowly limit
Olstowski’s protected technology to any specific structural details. Thus, the structural differences in Olstowski’s and Petroleum Analyzer’s technology are irrelevant. According to Olstowski and ATOM, the only
relevant comparison is Petroleum Analyzer’s use of
kryptonchloride in its MultiTek. Further, they assert
the use of krypton-chloride is not merely a function of
Olstowski’s protected technology as the district court
found. Instead, it is a method protected by the panel’s
trade-secret award.
Olstowski and ATOM base their entire case on Petroleum Analyzer’s use of krypton-chloride in the MultiTek. Further, because of the backdrop of the arbitration panel’s decision, they argue that what might otherwise look like a factual issue on the technology is
actually a legal issue of interpretation of the panel decision. As they ·surely realize, it is difficult to argue

App-025

that a legal question is posed when asking whether
one company used another’s protected technology. We
examine the argument to see if overcomes our doubts.
The arbitration panel stated that the technology described in Olstowski’s patents is a trade secret. To be
sure, the words “krypton” and “chloride” appear in the
panel decision. Yet it was unclear to the district court,
as it is unclear to us, how a gas and a chemical compound commonly used in lamps and lasers can be a
trade secret. Olstowski and ATOM could have provided expert testimony to show how the use of krypton-chloride is so unique to their device as to make it
an integral part of their protected trade secret as opposed to a generic concept of physics, which is unprotected. They did not. The two witnesses they did call
merely testified that Petroleum Analyzer’s MultiTek
used krypton-chloride, a fact Petroleum Analyzer does
not contest.
We conclude that Olstowski andATOM’s proclaimed
legal issue is indeed a factual one, and that they failed
to carry their burden of proof at trial. On this record,
we cannot say that the district court’s finding of fact
was clearly erroneous.
Olstowski and ATOM also argue that the district
court’s decision disregards the “law of the case,” which
would be another means to transform resolution of
this appeal into primarily a question of law. They contend that the state district and appellate courts confirmed the arbitration panel’s award of Olstowski’s
trade secret, and that the state district court clarified
the confirmation order’s description of the technology
to include the use of krypton-chloride. According to Olstowski and ATOM, the federal district court’s judgment improperly altered the plain meaning of the

App-026

previous orders. We find, first, that neither the arbitration panel award nor the state clarification order
explicitly stated that the use of krypton-chloride itself
was a protected trade secret. Second, ATOM and Olstowski asked the district court to “make a ruling . . .
defining what technology in dispute belongs to [them],
to the exclusion of’ Petroleum Analyzer. The district
court did so by a decision that did not deviate from the
arbitration panel award or any other order. In fact,
the district court stated that the arbitration panel
award’s description of Olstowski’s technology remained in effect.
The district court did not ignore the “law of the case.”

II.

Attorneys’ fees

After the district court entered its judgment on the
merits of this dispute, Petroleum Analyzer moved for
an award of attorneys’ fees under the Texas Theft Liability Act (“TTLA”). The Act states: “Each person who
prevails in a suit ·under this chapter shall be awarded
court costs and reasonable and necessary attorney’s
fees.” TEXAS CIV. PRAC. & REM. CODE ANN. §
134.005(b). In April 2019, the district court awarded
Petroleum Analyzer $1,319,260.78 in attorneys’ fees.
Olstowski and ATOM timely appealed.
“State law controls both the award of and the reasonableness of fees awarded where state law supplies
the rule of decision.” Mathis v. Exxon Corp., 302 F.3d
448, 461 (5th Cir. 2002). In reviewing an award of attorneys’ fees, we apply an abuse of discretion standard. LifeCare Mgmt. Servs. LLC v. Ins. Mgmt. Adm’rs
Inc., 703 F.3d 835, 846 (5th Cir. 2013). That means
clear error review of fact findings and de novo review
of legal conclusions. Id. One question before us is the
need to segregate attorneys’ fees. That is a question of

App-027

law; the extent to which certain claims can or cannot
be segregated is a mixed question of law and fact.
Tony Gullo Motors L LP. v. Chapa, 212 S.W.3d 299,
312-13 (Tex. 2006).
Olstowski and ATOM argue that the district court
erred ‘in failing to segregate Petroleum Analyzer’s
fees that were not related to Petroleum Analyzer’s defense of their claim under the TTLA. Texas law requires that “[i]f any attorney’s fees relate solely to a
claim for which such fees are unrecoverable, a claimant must segregate recoverable from unrecoverable
fees.” Id. at 313. The Texas Supreme Court explained:
“Intertwined facts do not make tort fees recoverable;
it is only when discrete legal services advance both a
recoverable and unrecoverable claim that they are so
intertwined that they need not be segregated.” Id. at
313-14. For example, where segregation is required,
attorneys are not required to “keep separate time records when they drafted the fraud, contract, or DTPA
paragraphs of [the] petition.” Id. at 314. One way to
present the facts is for counsel to estimate, “for example, 95 percent of their drafting time would have been
necessary even if there had been no fraud claim.” Id.
Requests for standard disclosures, proof of background facts, depositions of the primary actors,
discovery motions and hearings, voir dire of the
jury, and a host of other services may be necessary whether a claim is filed alone or with others.
To the extent such services would have been incurred on a recoverable claim alone, they are not
disallowed simply because they do double service.

Id. at 313 (emphasis added). “To meet a party’s burden

to segregate its attorney’s fees, it is sufficient to

App-028

submit to the fact-finder testimony from a party’s attorney concerning the percentage of hours” related to
claims for which fees are not recoverable. Berryman’s
S. Fork, Inc. v. J. Baxter Brinkmann Int’l Corp., 418
S.W.3d 172, 202 (Tex. App.-Dallas 2013, pet. denied)
(alteration and quotation marks omitted).
As an example of a failure to segregate, Olstowski
and ATOM identify billing entries for work totaling
$3,498 that occurred two days prior to their first assertion of a claim under the TTLA. They say that these
entries could not have been related to litigation of that
claim since they had yet to make the particular claim.
The total $3,498 amount should have been removed,
they argue, not just the lesser portion that the district
court did segregate. Another set of disputed billings
relates to an adversary proceeding regarding two patents allegedly unrelated to the excimer technology
dispute. Olstowski and ATOM contend that “numerous tasks” billed “potentially for tens of thousands” of
dollars in the unrelated patent dispute were not segregated out by the district court.
Petroleum Analyzer responds in two ways: it contends that these arguments were not timely made in
the district court and; regardless, the work that is said
to be unrelated to the judgment here was clearly related. Regarding possible waiver of the issue, there
was a challenge to the fees in the district court on the
basis that segregation of work was required. Though
the argument was not presented in any detail beyond
the portion of the billing entries totaling $3,498 that
is contested, we conclude the district court addressed
the issue of dividing the fees among different aspects
of the overall dispute and the issues were not waived.

App-029

We find no error as to the billing entries totaling
$3,498 used as an example of the need for segregating
the billings. Though the fees were billed for work done
via mediation prior to the TTLA claims being filed, the
work advanced Petroleum Analyzer’s attempt to resolve a threatened claim under the TTLA.
Olstowski and ATOM’s more general claim about error in the award of fees is that legal work on different
aspects of the dispute among the parties involved different patents and different proceedings, some in
bankruptcy court and some before the district court
after the referral was withdrawn. The district court
considered this argument and concluded it was both
difficult and unnecessary to divide the fees, because
the subsets of claims were too interrelated. The court’s
finding, it seems to us, was that none of the “attorney’s
fees relate solely to a claim for which such fees are unrecoverable,” Chapa, 212 S.W.3d at 313, and thus
there was no need to segregate.
The district court’s interaction with counsel at the
hearing on attorneys’ fees is the best indicator of the
findings on this point.
THE COURT: Counsel, suggest to me how having pleaded these two legal theories that ATOM
would segregate its fees had it won on just one of
them.
MR. JOSEPH (counsel for ATOM): Well, we
would have had to have gone through and looked
at the time we spent pleading Theft Liability Act,
the different interrogatories and requests for
production we sent.
THE COURT: But they are not different. You did
the same thing in prosecuting both claims as you
would have done if you only had one of them.

App-030

It seems to us that the court was saying that these
“discrete legal services advance[d] both a recoverable
and unrecoverable claim,” meaning they did not need
to be segregated. Id. at 313-14. Soon after that discussion, ATOM’s counsel stated what in his view was necessary in this kind of case:
MR. JOSEPH: The methodology [ employed by
Petroleum Analyzer] is not incorrect. What you
do is, like I said, you have to go back and go
through your time. And, yes, it’s a tedious task
to go through your time and look at how many
paragraphs of your petition went to this claim
versus all the other claims and how much discovery was specifically for this recoverable claim
and the other one.
The district court was not convinced that in this
case, such segregation could be accomplished.
THE COURT: But there is no way to divide this
up. The same proof would have upheld either one
of those claims by itself; and by choosing to be
redundant, ATOM cannot reduce the attorneys
fees that it took to prepare this case.
We see no failure by the district court to understand
how the TTLA works on awarding attorneys’ fees.
Whether and to what extent legal fees can be segregated is a mixed question of law and fact. Chapa, 212
S.W.3d at 313. We find neither clear factual error nor
legal error under de novo review.
Last, Petroleum Analyzer seeks remand of this case
for the district court to award Petroleum Analyzer

App-031

appellate attorneys’ fees. 1 Under Texas law, if a party
is entitled to recover attorneys’ fees in the trial court,
the party is also entitled to attorneys’ fees after successfully defending on appeal. DP Sols., Inc. v. Rollins,
Inc., 353 F.3d 421, 436 (5th Cir. 2003) (citing Gunter
v. Bailey, 808 S.W.2d 163, 166 (Tex. App.—El Paso
1991, no writ)). Olstowski and ATOM contend that Petroleum Analyzer waived the right to recover appellate attorneys’ fees under Texas law because Petroleum Analyzer “failed to request or prove contingent
appellate fees” in the original trial.
The Texas Supreme Court has held that a Texas
court of civil appeals does not have jurisdiction to initiate an award of appellate attorneys’ fees because
“the award of any attorney fee is a fact issue which
must [first] be passed upon the trial court.” International Sec. Life Ins. Co. v. Spray, 468 S.W.2d 347, 349
(Tex. 1971). In Texas state courts, requesting appellate fees at the original trial is a placeholder requirement to ensure the state trial courts maintain jurisdiction over the issue. Varner v. Cardenas, 218 S.W.3d
68, 69-70 (Tex. 2007). Those are procedural rules that
do not apply in federal court.
Our local rules provide for appellate litigants to petition this court for appellate attorneys’ fees. See 5TH
CIR. R. 47.8. Local Rule 47.8 does not require a party
seeking appellate attorneys’ fees to first request appellate attorneys’ fees in the district court as a placeholder. See Marston v. Red River Levee & Drainage
Dist., 632 F.2d 466, 467-68 (5th Cir. 1980) (awarding
appellate attorneys’ fees first requested on appeal).
1

Though we acknowledge that Petroleum Analyzer’s request for
appellate attorneys’ fees was made in its appellee brief, we treat
this request as a petition.

App-032

We AFFIRM the judgment .and trial fee award. We
REMAND to allow the district court to make the initial determination and award of appellate attorneys’
fees to Petroleum Analyzer.

App-033
Appendix D

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
___________
No. 19-20151
___________
Consolidated with No. 19-20371
In the Matter of: Atom Instrument Corporation, doing business as Excitron Corporation,
Debtor,
Atom Instrument Corporation, doing business as Excitron Corporation; Franek Olstowski,
Plaintiffs—Appellants,
versus
Petroleum Analyzer Company, L.P.,
Defendant—Appellee. Before
______________________________
Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:12-CV-1811
Before ELROD, SOUTHWICK, and HAYNES, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal and
was argued by counsel.
IT IS ORDERED and ADJUDGED that the judgment of the District Court is AFFIRMED and we
REMAND to allow the district court to make the

App-034

initial determination and award of appellate attorneys’ fees to Petroleum Analyzer.
IT IS FURTHER ORDERED that appellants pay to
appellee the costs on appeal to be taxed by the Clerk
of this Court.

App-035

Appendix E

UNITED STATES DISTRICT COURT
ATOM Instrument Corporation, ct al.,
Plaintiffs,
versus
Petroleum Analyzer Company, LP.,
Defendant.
§
SOUTHERN DISTRICT OF TEXAS
Civil Action H-12-1811
Order Denying Motion to Alter Judgment
No grounds exist to alter the judgment against
ATOM Instrument Corporation and Franek Olstowski. This court did not manifestly err at the law.
The court will not alter its final judgment. (146)
Signed on February 8, 2019, at Houston, Texas.
/s/ Lynn N. Hughes
Lynn N. Hughes
United States District Judge

App-036

Appendix F

UNITED STATES DISTRICT COURT
ATOM Instrument Corporation, ct al.,
Plaintiffs,
versus
Petroleum Analyzer Company, LP.,
Defendant.
§
SOUTHERN DISTRICT OF TEXAS
Civil Action H-12-1811
Final Judgment
1. Because this action was pending before the bankruptcy plan was confirmed, this court retains jurisdiction. The motion of Petroleum Analyzer Company,
LP., to dismiss for lack of jurisdiction is denied. (II7)
2. Franek Olstowski’s technology is a trade secret.
Petroleum Analyzer Company is liable for using the
trade secrets of Franek Olstowski and ATOM Instrument Corporation if it used his technology in its MultiTek. (20) (32)
3. Petroleum Analyzer Company did not use Franek
Olstowski’s technology in its MultiTek.
4. Franek Olstowski and ATOM Instrument Corporation take nothing from Petroleum Analyzer Company, LP.
Signed on August 16, 2018, at Houston, Texas.
/s/ Lynn N. Hughes
Lynn N. Hughes
United States District Judge

App-037

Appendix G

UNITED STATES DISTRICT COURT
ATOM Instrument Corporation, ct al.,
Plaintiffs,
versus
Petroleum Analyzer Company, LP.,
Defendant.
§
SOUTHERN DISTRICT OF TEXAS
Civil Action H-12-1811
Findings and Conclusions

I. Background.

Franek Olstowski worked for Petroleum Analyzer
Company, LP., before becoming president and partowner of ATOM Instrument Corporation.
ATOM and Petroleum develop, manufacture, and repair instruments for chemical analysis of hydrocarbons. In 2002, while working as a consultant for Petroleum, Olstowski developed an excimer light source
to detect sulfur using ultraviolet fluorescence. He did
this separately from his work at Petroleum. In 2003
and 2005, under a non-disclosure agreement, Petroleum and he talked about licensing his technology but
did not reach an agreement. Olstowski was awarded
a patent in 2007.
Excimer is short for excited dimer. It is a combination of a noble gas and a reactive gas that produces
ultraviolet light when excited by electricity. Possible
combinations include krypton and chloride, xenon and
chloride, and xenon and bromine. An excimer detects,

App-038

in this case, sulfur by making it glow. Like an excimer,
zinc or cadmium can be used as a source of ultraviolet
light.
In 2006, Petroleum sued ATOM and Olstowski in
Texas state court, claiming ownership of the excimer
technology. In their contract, Olstowski and Petroleum had agreed to arbitrate, so the court sent them
to do that. The arbitration panel awarded Olstowski
ownership of all the technology. It also held that it is
his trade secret. The panel enjoined Petroleum from
claiming or using the technology. The trial court and
the court of appeals confirmed the award.
The panel, the trial court, the court of appeals, and
this court have decided that Olstowski’s technology is
a trade secret because in their contracts, Olstowski
and Petroleum had agreed that Petroleum would not
disclose or use it.
In November of 2009, Petroleum started selling an
instrument called “MultiTek.” While appealing the
confirmation, Petroleum stipulated that the MultiTek
device used an excimer light source to detect sulfur
using ultraviolet fluorescence. Petroleum argued that
the injunction did not prohibit its use.
On realizing that Petroleum was selling a device
that used an excimer light source to detect sulfur using ultraviolet fluorescence, ATOM and Olstowski
filed several motions in the trial court. That court denied their motion for contempt and sanctions in February of 2011 and granted Petroleum’s motion for a
protective order in June. In October, it granted and
denied in part a motion to enforce the injunction, explaining that the meaning of Olstowski’s technology
was the same as it had been in arbitration but not deciding whether the MultiTek used his technology. It

App-039

denied ATOM and Olstowski’s amended motion to enforce and motion for sanctions in December. By that
time, the issue had become moot. By November of
2011, Petroleum had begun using a zinc lamp instead
of an excimer lamp in its MultiTek.
The question in this case is whether Petroleum used
Olstowski’s technology in its MultiTek products that
it sold between November 2009 and October 2011.
2. Jurisdiction.

This case began as an adversary action in ATOM’s
bankruptcy. In April of 2012, this court withdrew the
reference. The bankruptcy plan was confirmed in November of 2012. Because this action was pending before the plan was confirmed, this court retains jurisdiction. 1
3. Analysis.
A. Scope.

Olstowski’s technology is the technology defined by
the arbitration panel in its conclusion of law paragraph 5:
a. the technology and methods embodied
in the patent applications styled “Improved Ozone Generator with Dual Dielectric Barrier Discharge,” “Improved
Closed-Loop Light Intensity Control and
Related
Fluorescence
Application
Method,” and “Excimer UV Fluorescence
Detection”;
b. all of the accompanying drawings,
blueprints, schematics, and formulae
created or drawn by either Franek
1

See In re Enron Corp. Sec., 535 F'3d 325 (5th Cir. 2008).

App-040

Olstowski or Virgil Stamps of the application identified in or in support of items
(A) and (B); and
c. issued patents or patent applications
pending, entitled “Ozone Generator with
Dual Dielectric Barrier Discharge and
Methods for Using Same,” “Improved
Closed-Loop Light Intensity Control and
Related
Fluorescence
Application
Method,” and “Excimer UV Fluorescence
Detection” (as amended).
ATOM and Olstowski frequently claim that Olstowski’s technology is any device using an excimer
light source that uses krypton-chloride specifically to
measure sulfur using ultraviolet fluorescence. That
does not define the technology but rather describes its
function. ATOM and Olstowski say that this is not a
patent case but a trade secret case. That is true, but
in this case, the trade secret is the manifestation of
Olstowski’s idea that is contained in the patents and
patent applications described by the arbitration
award.
The scope of Olstowski’s technology is neither as
broad nor as narrow as the parties argue. It is not all
excimer light sources to detect sulfur using ultraviolet
fluorescence, nor is it only the excimer lamps he made.
It is exactly what the panel says it is. The only question for the court is whether the MultiTek used what
the panel decided was Olstowski’s technology.
B. MultiTek.

The MultiTek used an excimer lamp that Petroleum
purchased from Heraeus Noblelight, LLC. It differs in
several ways from Olstowksi’s lamp. It has a hollow,
cylindrical inner electrode made from a spiral of

App-041

polished aluminum and does not include an emission
aperture. Olstowski’s excimer lamp has an inner electrode made from a solid rod of conductive metal, and
it has an emission aperture at the end of a quartz envelope. Both lamps use some mixture of krypton and
chloride gases, emitting a wavelength of 222 nanometers. Olstowski never disclosed the proportion of the
gases that he used, so whether the two lamps use the
same mixture is unknown, eliminating this element.
C. Use.

ATOM and Olstowski have not proved that the MultiTek used Olstowski’s technology. They argue that
the inclusion of the patent applications in the arbitration award’s definition of Olstowski’s technology
means that it includes all excimer lamps to detect sulfur using ultraviolet fluorescence; however, much of
the general description of excimer, lamp technology in
his patent applications can be found in other sources.
Earlier scientific articles and patents disclose descriptions of how to use excimer technology to detect sulfur.
What ATOM and Olstowski have shown is that Petroleum used an excimer lamp to detect sulfur using ultraviolet fluorescence. Petroleum agrees. What they
have not shown is that the MultiTek’s excimer lamp
was sufficiently similar to Olstowski’s excimer lamp
to be his technology.
The patent office rejected of much of Petroleum’s patent application for an excimer lamp using a closedloop system because of Olstowski’s technology. ATOM
and Olstowski say that means that the MultiTek contained his technology. Petroleum filed that application in August of 2011, nearly two years after it had
started using an excimer lamp in the MultiTek and a
couple of months before it would stop using it. Also,

App-042

Petroleum did not use a lamp of its own creation—it
bought one from Heraeus.
Petroleum talked first with a company called Ushio
about getting an excimer lamp from it, then with
Heraeus. It decided to order from Heraeus, which already had a lamp similar to what it wanted. Petroleum gave Heraeus the physical dimensions that the
lamp had to meet and asked that it emit a wavelength
of 222 nanometers.
Petroleum set up a design team to work with
Heraeus on the lamp. It included people who either
had not worked with Olstowski on excimer lamp technology while he was at Petroleum or did not start
working at Petroleum until after Olstowski had left.
Sean Rick was in charge of the team. He knew of Olstowski’s technology but was not part of the design
team’s substantive work.
Petroleum did not use Olstowski’s technology in its
development of the lamp. 2 Heraeus created the lamp
using its excimer technology. Petroleum simply tested
Heraeus’s prototype and asked for physical alterations and a particular emission wavelength. Heraeus
tailored the lamp to fit Petroleum’s requests.
Olstowski’s technology and the MultiTek are different in structure. The MultiTek’s inner electrode is hollow—an aluminum spiral. Olstowski’s is solid—a rod
of some conductive metal. The MultiTek does not have
an emission aperture; Olstowski’s does. The emission
aperture concentrates the output. Not having one allows the maximum output. Both lamps use krypton
and chloride in some proportion. Whether they use
2

See Wellogix, Inc., v. Accenture, L.L.P., 716 F'3d 867 (5th Cir.

2013).

App-043

those gases in the same proportion is unknown, because Olstowski did not tell Petroleum what ratio of
krypton and chloride he used.
3. Conclusion.

Petroleum did not use Olstowski’s technology in its
MultiTek. Franek Olstowski and ATOM Instrument
Corporation take nothing from Petroleum Analyzer
Company, LP.
Signed on August 16, 2018, at Houston, Texas.
/s/ Lynn N. Hughes
Lynn N. Hughes
United States District Judge

App-044

Appendix H

UNITED STATES DISTRICT COURT
ATOM Instrument Corporation, et al.,
Plaintiffs,
versus
Petroleum Analyzer Company, LP.,
Defendant.
§
SOUTHERN DISTRICT OF TEXAS
Civil Action H-12-1811
Findings and Conclusions
Opinion on Partial Summary Judgment
1. Introduction.

A consulting scientist has sued a company for its use
of his trade secrets. He moved for a partial judgment
on liability for its theft of trade secrets and unfair
competition. He will prevail because (a) a judgment
holds that the technology is his trade secret and (b)
the company admits that it used it.
2. Background.

Franek Olstowski worked for Petroleum Analyzer
Company, L.P., before becoming president and part
owner of ATOM Instrument Corporation. ATOM and
Petroleum develop and repair instruments for chemical analysis of petroleum. While working as a consultant for Petroleum, Olstowski developed an excimer
light source to detect sulfur using ultraviolet

App-045

fluorescence. He created this separately from his work
at Petroleum and was awarded a patent in 2007.
In 2006, Petroleum sued ATOM and Olstowski
claiming ownership of the excimer technology. The arbitration panel awarded Olstowski ownership of all
the technology. It also held that it is his trade secret.
The panel enjoined Petroleum from claiming or using
the technology. The trial court and the court of appeals confirmed the award.
While appealing the confirmation, Petroleum stipulated that its instrument called “MultiTek” used an
excimer light source to detect sulfur using ultraviolet
fluorescence. Petroleum argued that the injunction
did not prohibit its use. The question in this case is
whether Petroleum’s MultiTek used Olstowski’s trade
secrets.
3. Preclusion.

A judgment holds that Olstowski’s technology is his
trade secret. Petroleum is bound by the award and its
injunction.
An issue may not be litigated again if it was ( a) fully
litigated; (b) essential to the judgment; and (c) between the same adverse parties. 1 Only the issues
sought to be precluded need to be the same as those in
the prior suit. 2
4. Application.

The court will not re-hear whether Olstowski's technology is a trade secret.

1

Eagle Properties, Ltd. v. Scharbauer, 807 S.W.2d 714, 721 (Tex.

1990).
2

Wilhite v. Adams, 640 S.W.2d 875, 876 (Tex. 1982).

App-046

First, the panel awarded the technology to Olstowski after ownership had been fully adjudicated.
The trial court and court of appeals confirmed the
award. Petroleum had three opportunities to challenge the trade-secret holding—it lost.
Re-urging its position despite the award, Petroleum
says that public technology cannot be a trade secret.
A disclosed concept, however, may still be protected
against a party who acquired it through a breach of
confidence. 3 Petroleum did not discover the use of excimer lamps through the patent. It learned of it after
signing a non-disclosure agreement with Olstowski.
Although the case in 2006 was not principally about
the classification of trade secrets, it was a part of the
arbitration and judgment.
Second, the technology was classified as Olstowski’s
trade secret, and Petroleum was enjoined from claiming it. The award gave Olstowski sole ownership of the
secrets, making it essential to the judgment. The
trade-secret ruling was independent of the panel's
holding about ownership. It gave Olstowski additional
property rights for disputes like this one.
Third, Petroleum concedes that it was genuinely adverse to ATOM and Olstowski in the first action and
before this court. It is precluded from re-litigating
whether Olstowski's technology is a trade secret.
5. Conclusion.

Petroleum Analyzer Company, L.P., will be liable for
using the trade secrets of Franek Olstowski and
ATOM Instrument, LCC, if it used his technology in
its MultiTek. The court will next (a) compare the

3

Sikes v. McGraw-Edison Co., 671 F.2d 150, 151 (5th Cir. 1982).

App-047

technologies and (b) examine the profit derived from
the use of Olstowski’s secrets.
Signed on August 8, 2.014, at Houston, Texas.
/s/ Lynn N. Hughes
Lynn N. Hughes
United States District Judge

